 

CASS COUNTY

GOVERNMENT

 

 

sein:

 

State’s Attorney

Birch P. Burdick

Assistant State’s
Attorneys:

Tracy J. Peters
Leah J. Viste
Reid A. Brady
Kara Schmitz Olson
Kimberlee J. Hegvik
Ryan J. Younggren
Renata J. Selzer
Tanya Johnson Martinez
Katherine M. Naumann
Joshua J. Traiser
Tracy E. Hines
SheraLynn Ternes
Derek K. Steiner
Robert C. Vallie

Victim/Witness
Coordinators:

Brenda Olson-Wray
Debbie Tibiatowski
Lori Lawson

Check Division/
Restitution:

Charlotte Eversvick
Casidy Heilman

Box 2806
211 Ninth Street South
Fargo, North Dakota 58108

PH: 701-241-5850
Fax: 701-241-5838

December 6, 2019

Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20543

Re: Barry C. Garcia v. State of North Dakota
Docket No. 19-399

Dear Clerk:

On behalf of the Respondent State of North Dakota, | respectfully
request an extension of time to respond to the Petition in the above-
referenced matter. The current schedule for a response is December
16, 2019. | request a 30-day extension to January 15, 2020.

The reasons for this request are as follows:
e oversee an office of 30+ attorneys and support staff.
e My office is responsible for criminal cases and civil legal counsel
to county government.
e | handle the civil matters, as well as various criminal matters.
e Over the last 20+ years, | am the only attorney who has dealt
with Petitioner Garcia's files.
¢ During the period when the responsive brief was scheduled,
unrelated and significant legal and personnel matters arose
requiring my personal involvement including, among others:
oan investigation and response involving employment
matters in a large county department;
othe necessity to fill a vacancy in my office staff, in which |
play a key role in the process, so as to alleviate the
workload on other staff, and
© apending post-conviction relief case involving a double
homicide.
e When the Supreme Court scheduled the response, | was out of
town for several days on business-related meetings.
Opposing counsel has no objection to this extension.
Thank you for your consideration of this request.

Sincerely,

P. Butdick
Cass County State's Attorney

BPBilr

Ce: John R. Mills (via email and US Mail)
Namrata Kotwani (via email and US Mail)
